HHS/OIG-Audit--"Audit of Medicare Part B Services Billed by Inland
Physicians' Service, (A-09-97-00062)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part B Services Billed by Inland Physicians' Service
for the Period January 1, 1994 through December 31, 1996" (A-09-97-00062)
July 16, 1998
Complete Text of Report is available in PDF format
(566 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of services billed by
Inland Physicians' Service, a partnership of two Doctors of Osteopathy. The
services that were billed were primarily visits to patients in skilled nursing
facilities and hospitals. Our review disclosed that 99 of the 100 services that
we sampled had been overpaid. We estimated that the lower limit of the overpayments
was $581,379.